0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

1.CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify thatl copy of the
foregoing Emergency Application for Writ oflnjunction
in Abet Life, Incorporated v. AlexM. Azar II, Secretary,
United States Department of Health and Human
Services, was sent via Next Day Service to the U.S.
Supreme Court, and Next Day service and e-mail
service to the following parties listed below, this 10th
day of September, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Karen Schoen
Alisa Beth Klein
U.S. Department of Justice
Civil Division, Appellate Section
Rm. 7533
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
(202) 514-3159
karen.a. schoen@usdoj.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jose Vela, Jr.
Assistant U.S. Attorney
U.S. Attorney's Office
Southern District of Texas, Suite 2300
1000 Louisiana Street
Houston, TX 77002
(713) 567-9000
jose. vela@usdoj.gov

Counsel for Respondent
Mark S. Kennedy
Counsel of Record
Lurese Terrell
12222 Merit Drive, Suite 1750
Dallas, TX 75251
(214) 445-07 40
markskennedylaw@msn.com

Counsel for Applicant

All par.ties required to be served have been served.

'\,

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2020.

Wo

DonnaJ.
Becker Gallagher L: - i .ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

Notary Public
[seal]

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

